<html>
<title> - THE STATE DEPARTMENT'S COUNTERTERRORISM BUREAU: BUDGET, PROGRAMS, AND EVALUATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 THE STATE DEPARTMENT'S COUNTERTERRORISM BUREAU: BUDGET, PROGRAMS, AND 
                               EVALUATION

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2014

                               __________

                           Serial No. 113-163

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
88-288                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--5/20/14 
    noon deg.
SEAN DUFFY, Wisconsin<greek-l>--5/
    29/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Tina Kaidanow, Ambassador-at-Large and Coordinator 
  for Counterterrorism, U.S. Department of State.................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tina Kaidanow: Prepared statement..................     6

                                APPENDIX

Hearing notice...................................................    20
Hearing minutes..................................................    21
Written responses from the Honorable Tina Kaidanow to questions 
  submitted for the record by the Honorable Adam Kinzinger, a 
  Representative in Congress from the State of Illinois..........    22


                         THE STATE DEPARTMENT'S
                    COUNTERTERRORISM BUREAU: BUDGET,
                        PROGRAMS, AND EVALUATION

                              ----------                              


                         TUESDAY, JUNE 10, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:04 p.m., in 
room 2200, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Terrorism remains one of the most of the most dangerous 
threats to U.S. national security and our interests worldwide. 
A recent study by the RAND Corporation found that from 2010 to 
2013, the number of jihadist groups worldwide grew 58 percent. 
The number of jihadist fighters doubled to a high estimate of 
over 100,000. The number of attacks by al-Qaeda affiliates 
increased from 390 to 1,000 attacks.
    Al-Qaeda remains a central part of this fight. Despite the 
death of Osama bin Laden, the group operates in more territory 
and has more safe havens than it did just 5 or 10 years ago. On 
this map to my right shows the global threat of al-Qaeda, the 
red being al-Qaeda and the blue being other terrorist groups, 
the territory generally that they control in the regions.
    Some estimates--well, in Syria, al-Qaeda affiliates have 
grown by huge numbers, with jihadists from all over the world 
coming to fight. It now appears that on the government side, 
there are about 3,000 so-called terrorists, and on the so-
called rebel side there are about 8,000 fighters. Some 
estimates put the number of foreign jihadists who have traveled 
to Syria up to 11,000. These fighters may return home to wreak 
havoc both in the United States and other Western countries.
    In Iraq, ISIL seems to take over more cities and towns by 
the day, carving out a terrorist ministate in the middle of the 
chaos. Al-Qaeda affiliates in Yemen and Somalia remain focused 
on U.S. interests. Some say AQAP is the strongest of all the 
affiliates.
    Boko Haram is on the rise in Nigeria, as seen through their 
recent kidnappings and mass slaughter of innocent civilians 
that the world knows about.
    Al-Qaeda in Afghanistan and Pakistan remains determined to 
make a comeback despite the erosion of the so-called al-Qaeda 
core. The five senior Taliban leaders that we just exchanged 
for Sergeant Bergdahl will not make Afghanistan a nicer place 
to live.
    This subcommittee has explored these issues in great detail 
over the last 18 months, and it seems to me the situation is 
getting worse, not better. The facts suggest that the fight 
against al-Qaeda and their affiliates has gotten worse as well.
    I added two amendments to the defense and intelligence 
authorizations this year on this issue. The Director of the 
National Intelligence must report back to Congress with a 
comprehensive strategy to combat al-Qaeda and its affiliates, 
including detailed definitions of how the administration views 
these groups. The Secretary of Defense is also required to 
contract out an independent assessment of U.S. Government's 
efforts to combat al-Qaeda and their affiliates. This was 
necessary because the administration's rhetoric on al-Qaeda has 
been all over the map, literally ranging from nearly defeated 
to a growing threat.
    GAO will also be taking a much closer look at the CT Bureau 
itself. I look forward to reading its findings sooner than 
later.
    Today we will hear from Ambassador Tina Kaidanow, the new 
Coordinator for Counterterrorism at the U.S. Department of 
State. The administration says counterterrorism is one of the 
top foreign policy goals. If that is true, then it does not 
make much sense to me that it left the Coordinator position 
vacant for over a year. But now we have an Ambassador, and I am 
glad to see that that position is filled.
    The mission of the State Department's Counterterrorism 
Bureau is to develop coordinated strategies to defeat 
terrorists abroad and secure the cooperation of international 
partners. It is an important mission, but it is not clear to me 
that the Bureau and what it is doing are accomplishing it. That 
is because very few of its resources are being spent on 
evaluating taxpayer dollars.
    Just three outside evaluations have been done since GAO 
first pointed out the need for evaluations to then the Office 
of Counterterrorism in 2008. The Bureau has yet to complete a 
single impact evaluation, the most rigorous of evaluations to 
truly measure whether or not money is making any difference. It 
is not clear why it took the office so long to get those three 
evaluations, and it is not clear to why the Bureau is still 
underfunding evaluations, with only one external evaluation 
currently on the docket.
    So we are going to have plenty to talk about with our 
Ambassador. Terrorism is an enemy that we cannot afford to 
ignore or underestimate.
    I now turn to the ranking member from California Mr. 
Sherman for his opening statement.
    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
hearings. I want to thank our witness for coming, and I know 
that she has to leave at 3:30 for an important international 
trip.
    Our efforts against terrorism can be divided into five 
general categories: Military force and the threat of military 
force, which is the responsibility chiefly of the Pentagon; our 
sanctions activity, which the State Department is very involved 
in, but is the focus of the Treasury Department; and our 
Intelligence Community's efforts, both in terms of gathering 
and analyzing intelligence, which, of course, the State 
Department does as well; but also whatever black ops or 
whatever that our Intel Community may engage in.
    Finally, there are two areas where the State Department 
takes the lead. One of those is assistance to our allies abroad 
in terms of training, grants, et cetera; and the other is our 
outreach on the ideological front, public diplomacy.
    We are here today to focus on the Bureau of 
Counterterrorism within the State Department, which directs 
U.S. Government efforts to improve counterterrorism operation 
with foreign governments and coordinates our overall U.S. 
counterterrorism policy. This agency has its history going back 
to 1972 after the Munich massacre of Israeli Olympic athletes.
    The budget has declined over the last few years, and I 
believe the President's request is $22.65 million. Its key 
programs include the Antiterrorism Assistance Program, which 
trains foreign law enforcement in counterterrorism and offers 
assistance to foreign governments on effective counterterrorism 
techniques. I would hope that the Government of Nigeria, for 
example, would be more anxious to take advantage of our efforts 
in this area. And there is the Regional Security Initiative, 
which strengthens the capacity of foreign governments to combat 
terrorism through regional cooperation. Finally, there is the 
Countering Violent Extremism Office that is part of our public 
diplomacy efforts, and I would hope that the State Department 
would have on staff and have consulting relationships with 
Muslim scholars so that we are in a position to argue hadith 
for hadith and Koranic verse for Koranic verse that such 
actions as abducting hundreds of girls from a school is not 
consistent with the teachings of the Muslim Prophet.
    The Government Accountability Office has been critical to 
monitoring our counterterrorism efforts as has the State 
Department Inspector General. Currently 2 percent of the 
Bureau's budget is spent on monitoring and evaluation.
    Finally, I want to focus on the importance of sanctions, 
which I realize may not be directly applied by your office. If 
we don't take our own sanctions laws seriously and enforce 
them, we can't expect the rest of the world to do the same. The 
fact that Iran has been brought to the table is as a result of 
sanctions policy. Now we have the French Banque Paribas, which 
has been accused of a host of actions in violation of U.S. 
sanctions law, particularly acting as the banker for the 
Khartoum regime, a regime in Sudan that is a state sponsor of 
terrorism.
    One would hope that the State Department and your office, 
Ambassador, would be pushing Treasury to be as tough as 
possible in this instance and every instance. I know that they 
are getting pushback from the French Foreign Ministry, and the 
State Department should not be acting as the agent, as an 
ambassador, for the French Ambassador or for French commercial 
interests, but rather should, and hopefully with your voice, be 
a strong voice for tough sanctions actually applied to those 
who intentionally violate the law.
    With that, Mr. Chairman, I yield back.
    Mr. Poe. Thank the gentleman.
    The Ambassador Tina Kaidanow is the Ambassador-at-Large and 
Coordinator for Counterterrorism in the U.S. Department of 
State. She previously served in various roles at the State 
Department including assignments abroad in Afghanistan, Kosovo, 
Bosnia and Herzegovina, Macedonia and Serbia.
    As the ranking member mentioned, the Ambassador is on a 
tight schedule, so I will dispense with the rest of the 
introduction, although the resume is quite long and good, and I 
will go straight to the witness for her statement.

 STATEMENT OF THE HONORABLE TINA KAIDANOW, AMBASSADOR-AT-LARGE 
 AND COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ambassador Kaidanow. Thank you very much, Mr. Chairman, 
Ranking Member Sherman. It is actually up to you gentlemen 
since there is so little time left, if you prefer it, I have 
already submitted the testimony for the record, the longer 
testimony; so if you care to, we can go straight into 
questions. It is really your choice. I have some comments, and 
I can certainly make some introductory remarks, but it is your 
choice.
    Mr. Poe. The Ambassador is correct. We have your written 
statement, and it is filed. If you wish to go ahead and 
summarize it and maybe mention some things that are not in it, 
that is fine, and then we will go straight to questions.
    Ambassador Kaidanow. Okay. I think the thing I would 
highlight probably the most from the written testimony and what 
I was prepared to present today is precisely what you 
highlighted at the outset of your comments, and that is that 
this really is an opportune moment for a hearing because it is 
an incredibly important time in our counterterrorism efforts. 
The changing and evolving nature of the threat that you spoke 
about, I think, is really one that I would also highlight.
    The threat that we face really continues to evolve from 
something that was more centralized and hierarchical in terms 
of the structure of the network toward something that is far 
more diverse and diffuse in terms of its structure and its 
components. I think we recognize, certainly in my Bureau, but 
more broadly within the U.S. Government, that to succeed 
against a more decentralized structure among the terrorists, we 
also have to adapt our own approach; and we have to be 
flexible, and we have to be nimble. That has become clearer 
over time.
    So I would just say that, you know, all the things that you 
mentioned--you discussed an array of threats and a variety of 
groups that concern us. You also mentioned Syria, which is 
something, obviously, that continues to build as an issue and 
that we are paying close attention to, but a whole variety of 
affiliates of al-Qaeda, as well as what we call like-minded 
groups. Not everyone is formally affiliated with al-Qaeda, but 
a number of groups have expressed at least some sort of 
institutional--affiliation is really too strong a word, but 
they have indicated their sympathy. Let us put it that way.
    So as I said, to succeed against a decentralized network, 
but one that is geographically diffuse, we have implemented a 
number of things programmatically but also in terms of our 
policy that we believe address this threat as time goes on.
    We can talk a little bit about the resources that we are 
dedicating to this. You mentioned some of the programmatic 
issues that relate to my Bureau, the kinds of programs that we 
are putting forward. We have a whole array of programs that we 
try and levy with our partners. I should say that, you know, 
what the President has articulated is a model in which we are 
moving from a very direct action-oriented kind of an approach; 
in other words, where the United States was really doing the 
bulk of the work on counterterrorism. We will continue, 
obviously, to defend our interests robustly. We must.
    With that said, what we are finding all across the globe is 
that these groups, as I said, that are now more diverse and 
diffuse are also posing challenges in local areas to local 
partners that we have. We need to be working very closely with 
them in order to find a commonalty of interest and to give them 
the skills, the capacity and the kinds of resources that they 
need in order to address that threat effectively, which is 
really in their interest, but it is also in ours. I think that 
by doing that, what we do is we position ourselves well down 
the road so that we don't have to take on large military 
efforts. We have ways of addressing that before we ever get to 
that.
    So, again, I am happy to talk about any of those things, 
including some of the issues that you raised about the actual 
implementation of our programs, depending on what your 
interests are.
    [The prepared statement of Ambassador Kaidanow follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. All right. A few questions. The ranking member 
alluded to this during his opening statement directly about 
sanctions, having them are only as good as the sanction 
themselves. Haqqani network, how much money has the United 
States Government frozen regarding their network? Do we know?
    Ambassador Kaidanow. Well, the last published report that 
we have is the terrorist asset report that we put out on an 
annual basis. The last one we have is actually published as of 
2012. It is retrospective, so unfortunately we don't have 
figures that would encompass the latest.
    As of the end of 2012, we had not frozen physically any 
assets from the Haqqani network, at least not insofar as the 
report details, but there are a couple things to bear in mind. 
One is that that report tends to focus pretty heavily on the 
state sponsors of terrorism. Of course, the Haqqani group is 
not a state sponsor of terrorism; it is a different kind of 
group, and it also operates pretty much outside the realm of 
the United States banking system and those areas where we might 
expect to find funds that we would either freeze or seize.
    That said, I really want to highlight something; I think 
the ranking member kind of alluded to this. The power of our 
sanctions and the power of our designations lies not so much 
always in how much money we freeze or we seize as assets here 
in the United States. What it allows us to do is oftentimes we 
take that designation, we move it to the U.N. We are able then 
to mobilize a whole series of efforts that brings in the entire 
international financial community, raises the cost to that 
group or that entity or that individual so that no one is doing 
business with them. And these are the kinds of things both from 
a moral standpoint, but also from a very pragmatic standpoint 
that we are able to do through our sanctions.
    We regard them very seriously. I think our Treasury 
colleagues would say the same. We are constantly talking to our 
partners overseas in order to get them to take those 
obligations seriously, and we also, through my Bureau in 
particular, we put a lot of effort against giving countries the 
skill set and the institutional structures they need to combat 
terrorist finance.
    Mr. Poe. Based on what you said, do you know if any nation, 
organization, international organization has seized any assets 
of the network?
    Ambassador Kaidanow. You know, Congressman, I don't have 
that information with me now. It may be hard to track, to be 
honest with you, because I don't know that I have access to 
every country's seizing or freezing of assets. As I said, we 
will come back to you with as full an answer----
    Mr. Poe. How about Boko Haram, same question.
    Ambassador Kaidanow. Same question and a similar answer in 
that because the information we have is as of 2012, and Boko 
Haram was designated as an organization in 2013, I don't have 
that information for you. But that said, again, we can try and 
look and see whether certainly within the U.S. context or 
outside of it we can provide you with that.
    Mr. Poe. When will that report be updated?
    Ambassador Kaidanow. It is done on an annual basis usually 
in May, but for the preceding calendar year. Similar to the 
Country Reports on Terrorism.
    Mr. Poe. What does the money in your budget go for?
    Ambassador Kaidanow. The money in the budget that we ask 
for out of the CT Bureau? It goes for an array of programming. 
We manage--and I just wanted to correct one thing that 
Congressman Sherman had said. I am not sure where the 22-
million figure came from. For Fiscal Year 2015, we will be 
asking for a total of around $221 million. We, the CT Bureau 
ourselves, we manage roughly or we would manage out of the 
request about $104 million. The rest of that is put through 
regional bureaus and both regional and bilateral lines of 
activity.
    Mr. Poe. Ambassador, where does the money go? What does it 
do? What does that money do? Taxpayer wants to know where that 
$20 million, $21 million goes. They ask us. What do we say?
    Ambassador Kaidanow. Absolutely. What it does is it builds 
capacity among our counterterrorism partners all over the globe 
to do the things we need them to do.
    Mr. Poe. What does ``capacity'' mean?
    Ambassador Kaidanow. It means a variety of things.
    Mr. Poe. I am from Texas. Would you just keep it simple for 
us? Tell us what ``capacity'' is.
    Ambassador Kaidanow. It means that we have prosecutors who 
can prosecute bad guys. It means that we have judges who will 
judge those people within the rule of law.
    Mr. Poe. Does it go to weapons?
    Ambassador Kaidanow. Not the money that we provide. In some 
cases the overall USG counterterrorism effort may involve some 
of that, but not in the money that we, through the State 
Department and through my Bureau, we are providing to our 
partners.
    What it will do is it will provide them with legal 
assistance so that they can go after the money flows of 
terrorists. It will counter the messaging that the terrorists 
and extremists are putting out there. It will do a number of 
things to empower women and youth, who are particularly 
vulnerable to communities that are at risk to extremism. It 
will go toward a whole array of programming on the multilateral 
side. So, for example, we now support something called the 
Global Counterterrorism Forum, which is a gathering of 
countries that is specifically designed to address terrorism 
issues and to put out best practices so that they are all 
following a kind of a design, again, to combat terrorist flow 
of money and all the other things that I just spoke of.
    Mr. Poe. Thank you, Madam Ambassador. I have to cut you off 
because I want those gentlemen over here to ask questions.
    The ranking member, I yield to him, 5 minutes.
    Mr. Sherman. It was pointed out to me by subcommittee staff 
that we did get these numbers from CRS. I want to thank you, 
Ambassador, for setting the record straight.
    Does your Department or Bureau or others in the State 
Department have as full-time employees Islamic scholars?
    Ambassador Kaidanow. We don't have--I don't think I would 
class it quite that way, but what we do have is programming 
that we support that brings in those voices, and we are intent 
on expanding that programming as well.
    Mr. Sherman. But you don't have a person on your staff--I 
can see how you contract out some of this, but you need 
somebody on staff who can then decide who to contract out to. 
You wouldn't run a medical research part of the government 
without a doctor on staff----
    Ambassador Kaidanow. Understood.
    Mr. Sherman [continuing]. Even though, of course, most of 
your your money would go as grants to medical institutions, 
because I think that the terrorists have contorted Islam, and 
that it is not difficult to find within Islam and within its 
holy writings repudiations for some of the barbaric behavior we 
have seen.
    Ambassador Kaidanow. Congressman, if you can let me point 
to a slightly different but a very similar effort to what you 
are talking about. It is housed within the State Department. It 
is actually an interagency effort. It is something called the 
Center for Strategic Counterterrorism Communications. It brings 
together the State Department, the Defense Department, some of 
our intelligence colleagues, and it is exactly designed to do 
what you are talking about. It pushes back----
    Mr. Sherman. Is there anybody working for the Federal 
Government on these matters that has memorized the Koran?
    Ambassador Kaidanow. I couldn't tell you if they have 
memorized the Koran.
    Mr. Sherman. At most madrasas there is a real focus on 
that, or at many madrasas. But is anyone getting a government 
salary because of their knowledge of Islamic scriptures?
    Ambassador Kaidanow. I will have to get back to you on 
that.
    Mr. Sherman. Please do get back to me on that for the 
record, because you can have all kinds of organization charts 
and hundreds of millions of dollars in your budget; you can't 
argue about what Islam teaches if you don't have somebody 
capable of teaching Islam.
    With the abduction of these schoolgirls, is the Nigerian 
Government now open to all of the types of assistance that we 
think that they ought to take from us?
    Ambassador Kaidanow. It is a good question. We have levied 
quite a bit of effort recently against trying to provide them 
with assistance and information and an array of different kinds 
of help, including, by the way, messaging help sort of in the 
realm of what you are just talking about. They have accepted 
that assistance and that advice. I will say, though, that we 
have consistently urged them to take what we would call a 
wholistic approach, because this is not going to be dealt with, 
unfortunately, solely in the context of one unfortunate and 
very, very tragic kidnapping. It is going to take an overall 
effort that involves economic, developmental reform of some of 
their security institutions. So it has got to be more than just 
a question of retrieving the girls. It has got to be something 
that is for the longer term, and that is something we are 
continuing to work with them on.
    Mr. Sherman. I yield back.
    Mr. Poe. Thank the gentleman.
    Mr. Vargas from California is recognized.
    Mr. Vargas. Mr. Chairman, thank you very much.
    I do have some questions, and again, thank you very much, 
Ambassador, for being here. With respect to the unfortunate 
unity government of the Palestinian Authority with Hamas, and, 
as you know, for any Palestinian Government, they should meet 
three conditions; that is, reject violence, recognize Israel, 
and abide by the previous agreements with Israel. Could you 
tell me a little bit now about Hamas and how they are 
influencing the Palestinian Authority? Have they changed their 
posture in any way?
    Ambassador Kaidanow. Thank you, Congressman.
    First of all, let me just say I know this has been the 
subject of quite a lot of discussion. The State Department and 
the U.S. Government have agreed for the time being to continue 
to deal with the government that was put in place by President 
Abbas on the condition, though, exactly as you outlined, that 
they will abide by the principles that you just articulated, 
including a commitment to nonviolence, including the 
recognition of the State of Israel, and all the other things 
that you mentioned.
    I will say this. I don't think this is a free pass. I think 
we are continuing to evaluate the actions of that government, 
and we will see what their actions hold.
    I would stress that with respect to Hamas itself, Hamas 
continues to be, in our view, a designated foreign terrorist 
organization. We do not deal with Hamas, we have not met with 
members of Hamas, and we will not provide any assistance to 
Hamas. So that is very clear.
    The other thing I would say is that we are continuing to 
consult with the Israelis on the kinds of security elements 
that they may need with respect to taking mitigating measures 
against Hamas and some of the things that have gone on even 
just as recently as the last few months. As I said, I will be 
actually going myself to Israel in the next week, and I will 
have formal consultations with them. So we take that quite 
seriously.
    Mr. Vargas. And I was going to ask you about that. I am 
glad you got to that. I do want to know, though, if any of the 
unity government's money is going to Hamas.
    Ambassador Kaidanow. I am not aware that it is, but, again, 
I don't have that information at this moment.
    Mr. Vargas. Okay. And how are we helping Israel to cope 
with this changing situation? You mentioned it generally, but 
how can we help more specifically? It does concern me, because 
now you have a known terrorist organization formed in this 
unity government that I think has a lot of capabilities, and I 
think it creates a larger threat for the State of Israel and 
for the whole Middle East.
    Ambassador Kaidanow. I understand your apprehension, and I 
understand certainly the Israelis'; and part of why I am going 
to Israel is to have that conversation and to hear specifically 
some of their concerns.
    I think there is a question both for the Israelis and for 
us in terms of what benefit is derived from cutting off 
contacts with that government when the security element of what 
goes on in the West Bank and Gaza is very much controlled by 
the government. So I think we have to weigh all of these 
considerations and decide for ourselves what is the right 
course forward, but with clear parameters that you laid out and 
that we are continuing to follow.
    Mr. Vargas. Thank you, Mr. Chairman. I yield back.
    Thank you, Ambassador.
    Mr. Poe. Thank the gentleman.
    We also have been joined by three other members of the 
committee. For those coming in, the Ambassador has to catch an 
airplane that is on time, and so she needs to leave at this 
point.
    Madam Ambassador, the gentlemen who have just come in, 
members of the committee, will probably no doubt have questions 
that they will submit to you, and reply in a timely manner in 
writing if you would.
    Ambassador Kaidanow. We absolutely will do that, of course.
    Thank you very much, gentlemen. I really appreciate the 
opportunity. I am sorry that we didn't have more time today. 
Again, I would offer myself up at any time if you have 
questions individually or otherwise.
    Mr. Poe. Committee is adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash><triangle><dot-box><careof><Rx><check><careof><Rx><bullet><box><natural>
                    <because><F-dash><Register>s deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
